APPENDIX A

United States Court of Appeals
for the Ninth Circuit
Opinion
Rose v. Guyer, 961 F.3d 1238 (9th Cir. 2020)
Filed June 18, 2020

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 1 of 22

FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ROBERT L. ROSE,
Petitioner-Appellant,
v.

No. 18-35630
D.C. No.
9:13-cv-00156DWM-JCL

LYNN GUYER; ATTORNEY GENERAL
FOR THE STATE OF MONTANA,
Respondents-Appellees.

OPINION

Appeal from the United States District Court
for the District of Montana
Donald W. Molloy, District Judge, Presiding
Argued and Submitted February 4, 2020
Seattle, Washington
Filed June 18, 2020
Before: Milan D. Smith, Jr., N. Randy Smith,
and Daniel A. Bress, Circuit Judges.
Opinion by Judge N.R. Smith

1a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 2 of 22

2

ROSE V. GUYER
SUMMARY*

Habeas Corpus
The panel denied Montana state prisoner Robert Rose a
certificate of appealability (COA) and dismissed for lack of
jurisdiction Rose’s appeal from the district court’s order
denying his motion under Fed. R. Civ. P. 70(a) to enforce the
district court’s conditional writ of habeas corpus, in a case in
which Rose was convicted, after a jury trial, of aggravated
kidnapping, assault with a weapon, and assault on a peace
officer, and sentenced to 100 years in prison with 20 years
suspended.
The district court granted the conditional habeas writ on
Rose’s claim that his trial attorney rendered ineffective
assistance by failing to inform him of the state’s plea
proposal. The conditional writ required the state to reoffer
Rose equivalent terms of the original plea proposal. After
Rose accepted the state’s reoffered plea proposal, the state
court rejected the final plea agreement. In his Rule 70(a)
motion, Rose argued that the conditional writ entitled him to
immediate release from an unconstitutional detention because
the state did not reoffer him an equivalent plea proposal.
The panel held that an order denying a Rule 70(a) motion
to enforce a conditional writ of habeas corpus pertains to the
district court’s adjudication of the habeas petition, and
28 U.S.C. § 2253(c)(1)(A) therefore requires a habeas

*

This summary constitutes no part of the opinion of the court. It has
been prepared by court staff for the convenience of the reader.

2a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 3 of 22

ROSE V. GUYER

3

petitioner to obtain a COA in order to appeal the district
court’s order.
The panel denied Rose a COA because he failed to make
the requisite showing under 28 U.S.C. § 2253(c)(2) that
jurists of reason would find it debatable whether the district
court abused its discretion in denying the Rule 70(a) motion.
After taking an initial peek at the merits, the panel concluded
that it is beyond reasonable debate that the district court did
not abuse its discretion in concluding that the reoffered plea
proposal and original plea proposal were equivalent with
respect to the State’s sentencing recommendations, conditions
of supervision and waiver of the right to appeal, and
treatment of Rose’s status as a persistent felony offender.
The panel therefore dismissed the appeal for lack of
jurisdiction.

COUNSEL
David F. Ness (argued), Assistant Federal Defender; Anthony
R. Gallagher, Federal Defender; Federal Defenders of
Montana, Great Falls, Montana; for Petitioner-Appellant.
Tammy K. Plubell (argued), Assistant Attorney General;
Timothy C. Fox, Attorney General; Attorney General’s
Office, Helena, Montana; for Respondents-Appellees.

3a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 4 of 22

4

ROSE V. GUYER
OPINION

N.R. SMITH, Circuit Judge:
Pursuant to 28 U.S.C. § 2253(c)(1)(A), a habeas petitioner
must obtain a certificate of appealability (“COA”) in order to
appeal a district court’s order denying a motion to enforce a
conditional writ of habeas corpus, brought under Federal Rule
of Civil Procedure 70(a). Such an order does pertain to the
district court’s adjudication of the habeas petition, thus
requiring a COA. See United States v. Winkles, 795 F.3d
1134, 1142 (9th Cir. 2015); see also Payton v. Davis,
906 F.3d 812, 821 (9th Cir. 2018). Petitioner-Appellant
Robert L. Rose (“Rose”) appeals from the denial of his Rule
70(a) motion to enforce a conditional writ of habeas corpus.
Upon application, the district court denied Rose a COA.
Because he now fails to make the requisite showing under
§ 2253(c)(2) to permit us to issue a COA, we deny him a
COA and dismiss his appeal for lack of jurisdiction.
I
After Rose kidnapped and severely cut his co-worker with
a knife and sprayed a law enforcement officer with a can of
pepper spray, Rose was charged with aggravated kidnapping,
assault with a weapon, and assault on a peace officer. More
than a year later, with Rose’s trial date approaching, the
county attorney of Ravalli County (the “State”) sent Rose’s
defense attorney a letter proposing the general terms of a plea
agreement. The letter stated:
In an effort to settle this case, I am willing to
offer a plea agreement along the following
lines:

4a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 5 of 22

ROSE V. GUYER

5

I will dismiss the Aggravated Kidnapping
charge and the felony Assault on a Judicial
Officer if your client pleads “open” to Assault
with a Weapon and a misdemeanor Assault
which would run consecutively to the Assault
with a Weapon.
Additionally, I would agree to cap the
Persistent Felony Offender at 10 years with 5
suspended. This would run consecutive to the
Assault with a Weapon. I would file an
Amended Information with the above charges.
Each party is free to argue for what it
deems is an appropriate sentence as to length
and [Department of Corrections] versus
[Montana State Prison].
Under this proposed plea, I have no
objection to a “no contest” plea.
....
All other terms and conditions, including the
length of parole or probation, would be
subject to argument by both sides with the
final decision being made by the Court.
Upon receipt of the letter, Rose’s attorney determined that
the plea proposal contained an illegal provision under
Montana law—Rose’s attorney believed that the State could
not charge or sentence Rose separately for his status as a
persistent felony offender (“PFO”). Based on that belief, and
before apprising Rose of the plea proposal, Rose’s attorney

5a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 6 of 22

6

ROSE V. GUYER

attempted to negotiate what he believed to be a valid plea
proposal with the State the following day. But instead of
negotiating, the State withdrew the offer and expressed its
intention to go to trial.
After a four-day jury trial, Rose was convicted of all three
counts and sentenced to 100 years in state prison with
20 years suspended. Rose’s convictions and sentence were
affirmed on direct appeal to the Montana Supreme Court. See
State v. Rose, 202 P.3d 749, 768 (Mont. 2009). He was also
denied post-conviction relief in the state courts. See Rose v.
State, 304 P.3d 387, 395 (Mont. 2013).
Following the state-court post-conviction proceedings,
Rose filed a habeas petition under 28 U.S.C. § 2254 in federal
district court. He alleged a panoply of claims,1 including a
claim for ineffective assistance of counsel based upon his trial
attorney’s alleged failure to inform him of the State’s plea
proposal. On this claim, the district court granted Rose a
conditional writ of habeas corpus (“Conditional Writ”), which
ordered:
On or before June 30, 2016, the State is
required to reoffer the equivalent terms of the
plea agreement proposed on May 21, 2003.
The state trial court can then exercise
discretion in deciding whether to vacate the
conviction from trial and accept the plea or
leave the conviction undisturbed. . . . If the
State does not meet the deadline for reoffering

1

The district court denied all of the rest of Rose’s claims, and he does
not appeal the decision as to those claims.

6a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 7 of 22

ROSE V. GUYER

7

the plea agreement, Rose shall be immediately
released from custody.
Rose appealed that order from the district court,
challenging the adequacy of the remedy. See Rose v.
Kirkegard, 720 F. App’x 406, 406 (9th Cir. 2018)
(unpublished). We affirmed the district court, finding that it
“ordered the remedy articulated by the Supreme Court for
circumstances where ‘inadequate assistance of counsel causes
nonacceptance of a plea offer and further proceedings lead to
a less favorable outcome.’” Id. (alterations adopted) (quoting
Lafler v. Cooper, 566 U.S. 156, 160 (2012)).
Pursuant to the district court’s Conditional Writ, the State
sent Rose’s new, federally appointed attorney a letter that
reproposed the general terms of a plea agreement. The letter
stated:
[I]n compliance with [the Conditional
Writ] the State will agree to the following
terms, equivalent to [the] May 21, 2003 offer:
1. The State will move to dismiss the
charges of Aggravated Kidnapping
and Assault on a Judicial/Peace
Officer;
2. Mr. Rose will plead guilty or no
contest to the charges of Assault with
a Weapon and misdemeanor Assault;
3. The State will recommend a sentence
of;

7a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 8 of 22

8

ROSE V. GUYER
a. Assault with a Weapon: thirty (30)
years, as a persistent felony
offender, with five (5) years
suspended; and
b. Assault (misdemeanor): six (6)
months jail time, consecutive to
the sentence on the assault with a
weapon;
4. Mr. Rose will be free to recommend
any lawful sentence.
....
If [Rose] does accept this offer, I will
formalize it in a standard plea agreement
format used in Ravalli County for execution
by all of us.

Rose accepted the State’s plea proposal upon receipt.
Thereafter, the State prepared a final plea agreement, which
Rose and his attorney signed.
However, when the State and Rose presented the final
plea agreement to the state trial court at the change of plea
hearing, the court rejected it. The court stated it was rejecting
the agreement because of Rose’s “complete unwillingness to
accept any responsibility for his actions at the time the
[original plea proposal] was initially offered.” As a result,
Rose’s convictions and sentence were left undisturbed. The
state trial court’s rejection of the final plea agreement was
affirmed on appeal to the Montana Supreme Court. See State
v. Rose, 406 P.3d 443, 448 (Mont. 2017).

8a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 9 of 22

ROSE V. GUYER

9

After the state trial court rejected the final plea agreement
and the Montana Supreme Court affirmed the rejection, Rose
returned to federal district court to file a Federal Rule of Civil
Procedure 70(a) motion to enforce the Conditional Writ. See
Fed. R. Civ. P. 70(a) (“If a judgment requires a party . . . to
perform [a] specific act and the party fails to comply within
the time specified, the court may order the act to be done . . .
by another person appointed by the court. When done, the act
has the same effect as if done by the party.”). For the first
time, Rose argued that, because the State did not reoffer him
an equivalent plea proposal, the State’s failure to comply with
the Conditional Writ entitled him to immediate release from
an unconstitutional detention.
The federal district court denied the motion without a
hearing. In deciding that the State had “timely and faithfully
executed” the Conditional Writ, the court rejected the
suggestion that Rose was not offered an equivalent plea
proposal because of two discrepancies between the original
and reoffered plea proposals. First, the court determined that
the original plea proposal was “illegal in form because it
called for separate sentences for Assault with a Weapon and
for Rose’s designation as a [PFO].” The court explained that,
“[u]nder Montana law, sentences imposed based upon an
offender’s [PFO status] replace the sentence for the
underlying felony.” Therefore, the court found that the State
could not have lawfully reoffered this exact term in 2016.
Second, the court determined that, although the reoffered plea
proposal contained a specific sentencing recommendation
(whereas the original plea proposal left the State largely free
to recommend a sentence it deemed appropriate), it was
“entirely possible” for the State “to recommend the same
aggregate sentence” under both proposals. Furthermore, the
court noted that both proposals anticipated that additional

9a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 10 of 22

10

ROSE V. GUYER

terms would be incorporated into a final plea agreement if
Rose accepted the offer. Finding that the original and
reoffered plea proposals were equivalent, the court concluded
that Rose was not entitled to relief under Rule 70(a). 2
Rose then filed an application with the district court for a
COA to appeal the denial of his Rule 70(a) motion. The
district court denied Rose’s COA application, but noted that
it was “not aware of any authority requiring a [COA] to issue
from an order denying a motion under Rule 70.” The court
also ordered that Rose’s application for a COA be treated as
a timely notice of appeal.
Because Rose did not obtain a COA from the district
court, a motions panel of this Court considered whether to
issue Rose a COA. Finding it “an open question as to whether
a [COA] is required to appeal from the denial of a Rule 70
motion,” the motions panel referred Rose’s appeal to this
panel “to determine whether a COA is required under 28
U.S.C. § 2253(c)(1)(A) and, if so, whether [Rose] is entitled
to a COA.” The parties were also directed to brief the merits
of Rose’s appeal.
II
We must first resolve an open question in this Circuit:
whether 28 U.S.C. § 2253(c)(1)(A) requires a habeas
petitioner to obtain a COA to appeal the denial of a motion to
enforce a conditional writ of habeas corpus brought under

2

The court also found Rose’s arguments effectively “moot” and
“immaterial,” because Rose accepted and the state trial court rejected the
final plea agreement.

10a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 11 of 22

ROSE V. GUYER

11

Federal Rule of Civil Procedure 70(a). For the following
reasons, we conclude the statute does require a COA.
A
It is well established that, before a federal court may
entertain an appeal from a “final order in a habeas corpus
proceeding,” 28 U.S.C. § 2253(c)(1)(A), a petitioner “must
first seek and obtain a COA,” Miller-El v. Cockrell, 537 U.S.
322, 335–36 (2003).3 A COA is “a jurisdictional
prerequisite,” id. at 336, which serves a “gatekeeping
function” by “screen[ing] out issues unworthy of judicial time
and attention and ensur[ing] that frivolous claims are not
assigned to merits panels,” Thaler, 565 U.S. at 145.
The Supreme Court in Harbison v. Bell, 556 U.S. 180
(2009), clarified that § 2253(c)(1)(A) governs only appeals
from “final orders that dispose of the merits of a habeas
corpus proceeding—a proceeding challenging the lawfulness
of the petitioner’s detention.” Id. at 183. It thus found that
“[a]n order that merely denies a motion to enlarge the
authority of appointed counsel (or that denies a motion for
appointment of counsel) is . . . not subject to the COA
requirement.” Id.

3

Under § 2253(c)(1)(A), a habeas petitioner must obtain a COA from
either a district court judge or a circuit judge. Hanson v. Mahoney,
433 F.3d 1107, 1111 (9th Cir. 2006); see also Fed. R. App. P. 22(b)(1)
(“In a habeas corpus proceeding . . . , the applicant cannot take an appeal
unless a circuit justice or a circuit or district judge issues a [COA] under
28 U.S.C. § 2253(c).”). “Habeas Corpus Rule 11(a) requires district judges
to decide whether to grant or deny a COA in the first instance.” Gonzalez
v. Thaler (Thaler), 565 U.S. 134, 143 n.5 (2012).

11a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 12 of 22

12

ROSE V. GUYER

We have since “interpreted Harbison very narrowly,”
Payton, 906 F.3d at 819, applying § 2253(c)(1)(A)’s COA
requirement to appeals from orders denying certain postjudgment motions. In Winkles, we held “that a COA is
required to appeal the denial of a Rule 60(b) motion for relief
from judgment arising out of the denial of a section 2255
motion.” 795 F.3d at 1142.4 We found no indication in
Harbison that an order denying a Rule 60(b) motion—which
“allows a party to seek relief from a final judgment, and
request reopening of his case, under a limited set of
circumstances including fraud, mistake, and newly discovered
evidence,” Gonzalez v. Crosby (Crosby), 545 U.S. 524, 528
(2005)—would not be subject to the COA requirement,
Winkles, 795 F.3d at 1141–42. We determined that the order
at issue in Harbison was unlike an order on a Rule 60(b)
motion, in that the Harbison order “was wholly distinct from
the habeas petition” and “did not pertain to the district court’s
adjudication of the habeas petition.” Id. at 1142. For example,
the Harbison order neither “touch[ed] on the merits of the
habeas petition nor consider[ed] any alleged defects in the
integrity of the proceedings.” Id.5 In contrast, “a legitimate
Rule 60(b) motion for relief from judgment arising out of the

4

Section 2255 provides “habeas-like” relief for federal prisoners,
Clay v. United States, 537 U.S. 522, 528 (2003), and includes a
“functionally identical” COA requirement as petitions under § 2254,
Winkles, 795 F.3d at 1141. We have thus found cases involving § 2255
motions controlling in the context of a § 2254 habeas petition. See, e.g.,
Payton, 906 F.3d at 818–20.
5
We had also previously “extended Harbison” in Lambright v. Ryan,
698 F.3d 808 (9th Cir. 2012), so as not to require a COA “to appeal an
order modifying a protective order,” which “had similarly little to do with
the adjudication of the habeas petition.” Winkles, 795 F.3d at 1142 (citing
Lambright, 698 F.3d at 817 n.2).

12a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 13 of 22

ROSE V. GUYER

13

denial of a section 2255 motion pertains to the district court’s
adjudication of the section 2255 motion.” Id. We thus
required the petitioner to obtain a COA. Id.
We then applied Winkles’s reasoning in Payton, holding
that a habeas petitioner must obtain a COA to appeal an order
denying a Rule 60(d) motion, 906 F.3d at 820, which
“empowers courts to ‘set aside a judgment for fraud on the
court,’” id. at 818 (quoting Fed. R. Civ. P. 60(d)(3)). Citing
Winkles, we explained that “a COA is required to appeal an
order ‘pertaining to the district court’s adjudication of the
habeas petition.’” Id. at 819 (alteration adopted) (quoting
Winkles, 795 F.3d at 1142). This includes (but is not limited
to) “orders that ‘touch on any alleged defects in the integrity
of the proceedings arising out of the district court’s
adjudication of the petition.’” Id. at 819–20 (alterations
adopted) (quoting Winkles, 795 F.3d at 1142). Because a
“Rule 60(d) motion attacks the integrity of the federal habeas
proceedings,” we concluded that a COA was necessary to
appeal a denial. Id. at 820.
Winkles and Payton have defined our task accordingly. To
determine whether § 2253(c)(1)(A) requires a habeas
petitioner to obtain a COA to appeal an order denying a Rule
70(a) motion to enforce a conditional writ of habeas corpus,
we must decide whether such an order “pertain[s] to the
district court’s adjudication of the habeas petition.” See id.
at 819 (quoting Winkles, 795 F.3d at 1142).
B
Federal Rule of Civil Procedure 70(a) provides in relevant
part:

13a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 14 of 22

14

ROSE V. GUYER
If a judgment requires a party . . . to perform
[a] specific act and the party fails to comply
within the time specified, the court may order
the act to be done . . . by another person
appointed by the court. When done, the act
has the same effect as if done by the party.

This rule authorizes a district court to enforce its judgment
“only when a party refuses to comply with [the] judgment.”
McCabe v. Arave, 827 F.2d 634, 639 (9th Cir. 1987); see also
Westlake N. Prop. Owners Ass’n v. City of Thousand Oaks,
915 F.2d 1301, 1304 (9th Cir. 1990) (“[Rule 70] applies only
to parties who have failed to perform specific acts pursuant to
a judgment.”).
In his Rule 70(a) motion, Rose alleged that the State
failed to comply with the district court’s Conditional Writ by
not reoffering him an equivalent plea proposal. By not
complying with the Conditional Writ, Rose argues that the
State failed to cure the constitutional violation adjudicated in
his habeas proceedings, which left him “deprived of any
remedy for his constitutional injury.” He therefore sought
enforcement of the Conditional Writ’s provision that, “[i]f the
State does not meet the deadline for reoffering the
[equivalent] plea agreement, Rose shall be immediately
released from custody.”6
Rose maintains that, because his Rule 70(a) motion has
“nothing to do with the underlying merits” of the habeas
proceedings—“the merits of the litigation . . . have already

6

Respondents do not challenge Rose’s use of Rule 70(a) to seek
enforcement of the Conditional Writ. Therefore, we do not decide whether
Rose’s motion was properly brought under Rule 70(a).

14a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 15 of 22

ROSE V. GUYER

15

been determined before Rule 70 can come into play”—he is
not required to obtain a COA to appeal the district court’s
denial. However, assuming only for the sake of argument that
this is true, a bona fide Rule 60(b) motion also has nothing to
do with the underlying merits of the habeas proceeding, but
the denial of such an order nevertheless requires a COA to
appeal. See Winkles, 795 F.3d at 1142.7 “[A] bona fide Rule
60(b) motion ‘attacks, not the substance of the federal court’s
resolution of a claim on the merits, but some defect in the
integrity of the federal habeas proceedings.’” Hall v. Haws,
861 F.3d 977, 985 (9th Cir. 2017) (quoting Crosby, 545 U.S.
at 532). In other words, a bona fide Rule 60(b) motion
challenges “a nonmerits aspect of the first federal habeas
proceeding.” Crosby, 545 U.S. at 534.
Thus, in Winkles and Payton, we did not limit the
applicability of the COA requirement to orders touching on
the merits of a habeas petition or considering alleged defects
in the integrity of the proceedings. Instead, we used the more
inclusive rule that § 2253(c)(1)(A) requires a COA to appeal
an order that simply “pertain[s] to the district court’s
adjudication of the habeas petition,” Payton, 906 F.3d at 819
(quoting Winkles, 795 F.3d at 1142), which we contrasted
with orders that are “wholly distinct from the habeas petition”
and are therefore not subject to the COA requirement,
Winkles, 795 F.3d at 1142.

7

The Supreme Court in Crosby distinguished a bona fide Rule 60(b)
motion from a Rule 60(b) motion “that seeks to add a new ground for
relief” or “attacks the federal court’s previous resolution of a claim on the
merits.” 545 U.S. at 532. A Rule 60(b) motion seeking relief from
judgment on these grounds will be treated as a second or successive
habeas petition. Id. at 530–32.

15a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 16 of 22

16

ROSE V. GUYER

Unlike an order to enlarge the authority of appointed
counsel or an order modifying a protective order, an order
denying a Rule 70(a) motion to enforce a conditional writ is
not “wholly distinct from the habeas petition.” See id. A
conditional writ of habeas corpus declares that a petitioner “is
being held in custody in violation of his constitutional (or
other federal) rights,” Harvest v. Castro, 531 F.3d 737, 741
(9th Cir. 2008), but delays release of the “petitioner in order
to provide the State an opportunity to correct the
constitutional violation found by the court,” Hilton v.
Braunskill, 481 U.S. 770, 775 (1987). “When a district court
issues a conditional habeas writ, it retains jurisdiction to
determine compliance.” Jensen v. Pollard, 924 F.3d 451, 454
(7th Cir. 2019); see also Leonardo v. Crawford, 646 F.3d
1157, 1161 (9th Cir. 2011).
If a state complies with a conditional writ, the petitioner
will not be released from detention, because the state has
cured the constitutional error and the federal court’s residual
enforcement jurisdiction ends. See, e.g., Gentry v. Deuth,
456 F.3d 687, 692 (6th Cir. 2006) (“‘If the state complies
with its order, the petitioner will not be released . . . .’ [W]hen
a state meets the terms of the habeas court’s condition, . . . the
habeas court does not retain any further jurisdiction over the
matter.” (quoting Phifer v. Warden, U.S. Penitentiary,
53 F.3d 859, 862 (7th Cir. 1995))). However, if a state “fails
to cure the constitutional error, i.e., when it fails to comply
with the order’s conditions, . . . the conditional grant of
habeas corpus requires the petitioner’s release from custody.”
Harvest, 531 F.3d at 750; see also Gentry, 456 F.3d at 692
(“[I]f the state fails to comply with [the district court’s] order,
release will occur. Ordinarily, the only task that remains for
the district court is the execution of judgment.” (quoting
Phifer, 53 F.3d at 862)).

16a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 17 of 22

ROSE V. GUYER

17

Upon the filing of a Rule 70(a) motion to enforce a
conditional writ, a district court must decide whether a state
has complied with the remedy designed by the district court
in the underlying habeas proceedings. See Jensen, 924 F.3d
at 454–55. This decision will in turn determine whether the
state cured the constitutional violation adjudicated in the
habeas proceedings or whether the petitioner is entitled to
immediate release from his unconstitutional detention. See
Harvest, 531 F.3d at 750; see also Gentry, 456 F.3d at 692.
Therefore, a habeas petitioner must seek and obtain a
COA to appeal an order on a Rule 70(a) motion to enforce a
conditional writ of habeas corpus. Such an order “pertain[s]
to the district court’s adjudication of the habeas petition.” See
Payton, 906 F.3d at 819 (quoting Winkles, 795 F.3d at 1142).
III
We next address whether Rose is entitled to a COA. Rose
first sought and was denied a COA in the district court.
Because Rose has failed to make the requisite showing under
28 U.S.C. § 2253(c)(2), we also deny him a COA.
Section 2253(c)(2) provides that a COA “may issue . . .
only if the applicant has made a substantial showing of the
denial of a constitutional right.” When appealing a district
court’s procedural ruling (as is the case here), see Payton,
906 F.3d at 820, a petitioner makes “a substantial showing”
under § 2253(c)(2) by demonstrating that: (1) “jurists of
reason would find it debatable whether the petition states a
valid claim of the denial of a constitutional right”; and
(2) “jurists of reason would find it debatable whether the
district court was correct in its procedural ruling,” Slack v.
McDaniel, 529 U.S. 473, 484 (2000). This two-step inquiry

17a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 18 of 22

18

ROSE V. GUYER

should also reflect the standard of review applicable to the
order on appeal. See Winkles, 795 F.3d at 1143 (“[T]he COA
test for appeal of the denial of a Rule 60(b) motion should
coincide with the standard of review the court will apply
during the appeal. Here, that standard of review is abuse of
discretion.”); see also Payton, 906 F.3d at 821 (incorporating
an abuse-of-discretion standard within the COA test for an
appeal of a Rule 60(d) motion).
Respondents do not dispute that Rose successfully
asserted a valid constitutional claim (in the underlying habeas
petition). Thus, to obtain a COA, Rose must show that jurists
of reason would find it debatable whether the district court
abused its discretion in denying the Rule 70(a) motion to
enforce the Conditional Writ. See Madrigal v. Tellez,
848 F.3d 669, 672–73 (5th Cir. 2017) (reviewing an order on
a Rule 70 motion for abuse of discretion); see also Jensen,
924 F.3d at 454–55 (reviewing the district court’s
interpretation of its conditional writ to determine compliance
for abuse of discretion). This question requires us to take “an
initial peek at how the appeal would proceed.” Winkles,
795 F.3d at 1143. Yet, we are mindful that “[t]he COA
inquiry . . . is not coextensive with a merits analysis”; it
“should be decided without ‘full consideration of the factual
or legal bases adduced in support of the claims’” so as to
avoid “deciding an appeal without jurisdiction.” Buck v.
Davis, 137 S. Ct. 759, 773 (2017) (quoting Miller-El,
537 U.S. at 336–37).
On the merits, Rose argues that the State failed to comply
with the Conditional Writ, because several terms in either the
reoffered plea proposal or the final plea agreement were not
“equivalent” to those contained in the original plea proposal.

18a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 19 of 22

ROSE V. GUYER

19

Therefore, he contends the district court abused its discretion
in denying his Rule 70(a) motion.
To prevail on appeal, Rose must show that the district
court’s decision was “(1) illogical, (2) implausible, or
(3) without support in inferences that may be drawn from the
facts in the record,” Lambright, 698 F.3d at 817 (quoting
United States v. Hinkson, 585 F.3d 1247, 1262 (9th Cir. 2009)
(en banc)). Although “the ‘standard for obtaining a COA is
not a particularly exacting one,’” Carter v. Davis, 946 F.3d
489, 522 (9th Cir. 2019) (quoting Wilson v. Belleque,
554 F.3d 816, 826 (9th Cir. 2009)), after taking an initial peek
at the merits, we do not find that reasonable jurists would
debate whether the district court abused its discretion in
denying Rose’s motion.8
Rose first argues that the specific sentencing
recommendation included in the reoffered plea proposal was
not equivalent to the original plea proposal, which provided
only that the State would be “free to argue for what it deems
is an appropriate sentence.” Although Rose concedes that the
district court was correct in finding that the State could have
recommended the same aggregate sentence under both
proposals, he asserts that the State’s decision to recommend
the maximum sentence in the reoffered plea proposal
foreclosed the possibility that the evidence and argument at
sentencing would compel a more lenient sentencing
recommendation.

8

Rose himself accepted the terms of the reoffered plea agreement
before the state trial court rejected it, as the state trial court was allowed
to do under the terms of the Conditional Writ.

19a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 20 of 22

20

ROSE V. GUYER

However, it is not unreasonable to conclude that the
original and reoffered plea proposals were equivalent in this
respect. Rose’s argument ignores the fact that, when the State
made its sentencing recommendation in the reoffered plea
proposal, it had already heard the evidence and arguments at
Rose’s sentencing hearing in 2004. Therefore, Rose was not
deprived of the opportunity to compel a more lenient
sentencing recommendation. But, even if he had been, the
original plea proposal never committed the State to consider
the evidence and arguments at sentencing before determining
its sentencing recommendation. Rose also provides us no
indication in the record that the State would have done so in
2003. Thus, it is beyond reasonable debate that the district
court did not abuse its discretion in finding that the two
proposals were equivalent despite the State’s specific
sentencing recommendation in the reoffered plea proposal.
Rose next argues that a number of conditions contained
in the final plea agreement were completely missing from the
original plea proposal—namely, certain conditions of
supervision and a waiver of the right to appeal. But as the
district court explained, both proposals contemplated the
incorporation of additional terms and conditions into a final
plea agreement if Rose accepted the offer. Furthermore, Rose
identifies no term in the final plea agreement in 2016 that
would not have been present in a final plea agreement had
one been reached in 2003. Therefore, Rose’s comparison
between the final plea agreement and the original plea
proposal does not provide grounds upon which reasonable
jurists would debate whether the district court was within its
discretion in finding that the original and reoffered plea
proposals were equivalent.

20a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 21 of 22

ROSE V. GUYER

21

Lastly, Rose highlights that the original plea proposal
provided for a separate 10-year sentence with 5 years
suspended for Rose’s status as a PFO, see Mont. Code Ann.
§ 46-18-502, which would run consecutively with his
sentence for assault with a weapon (an offense carrying a
statutory maximum of 20 years, see Mont. Code Ann. § 45-5213(2)(a)). On the other hand, the reoffered plea proposal
provided for a 30-year sentence with 5 years suspended for
assault with a weapon—presumably the combination of a 20year maximum sentence under Mont. Code Ann. section 455-213(2)(a) with (what is in effect) a 10-year sentencing
enhancement for Rose’s PFO status.
Because “sentences imposed based on an offender’s status
as a [PFO] replace the sentence for the underlying felony”
under Montana law, State v. Gunderson, 237 P.3d 74, 84
(Mont. 2010), the district court explained that, had the State
reoffered Rose the exact same term as the original plea
proposal with respect to Rose’s PFO status, such a proposal
would have been “illegal in form.” Nevertheless, the district
court found the original and reoffered plea proposal
equivalent, finding it possible for Rose to obtain a combined
30-year sentence with 5 years suspended for assault with a
weapon and his PFO status under both proposals. Rose does
not contest the district court’s reasoning.
In conclusion, none of Rose’s arguments demonstrate that
reasonable jurists would debate whether the district court
abused its discretion in finding that the State complied with
the Conditional Writ and thus in denying Rose’s Rule 70(a)

21a

Case: 18-35630, 06/18/2020, ID: 11725638, DktEntry: 31-1, Page 22 of 22

22

ROSE V. GUYER

motion. Consequently, Rose has failed to make a substantial
showing under § 2253(c)(2) to permit the issuance of a COA.
Certificate of Appealability DENIED and appeal
DISMISSED.

22a

APPENDIX B

United States District Court, District of Montana
Order to Enforce Judgment Denied
Rose v. Kirkegard, Cause No. CV 13-156-M-DWM
Filed May 24, 2018

Rose v. Kirkegard, Slip Copy (2018)

2018 WL 10561909
Only the Westlaw citation is currently available.
United States District Comt, D. Montana,
Missoula Division.
Robert L. ROSE, Petitioner,

plea agreement signed by all parties was filed with the state
trial court. (Doc. 110-1 at 13-14.) Following a hearing, the
state trial court rejected the plea agreement and ordered that
Rose's prior conviction remain undisturbed. Rose appealed
the nahire of the remedy ordered by this Court to the Ninth
Circuit. Rose v. Kirkegard, 720 F. App'x 406 (9th Cir. April
24, 2018).

v.
Leroy KIRKEGARD; Attorney General
of the State of Montana, Respondents.
Cause No. CV 13-156-M-DWM

I
Signed 05/24/2018

App'x at 406 (citing
775 (1987)).

Attorneys and Law Firms
David F. Ness, Federal Defenders of Montm1a, Great Falls,
MT, for Petitioner.
C. Mark Fowler, Tammy K. Plubell, Office of the Montana
Attorney General, Helena, MT, for Respondents.

ORDER
Donald W. Molloy, District Judge
~1 The entire procedural histm:y of this case has been set
forth at length in previous orders and will not be repeated
herein. On June 23, 2016, this Comt determined Rose was
provided ineffective assistance of counsel when his attorney
failed to convey the terms of a formal plea offer during his
2003 state court proceedings. (Doc. 94.) Rose was granted
habeas relief on the claim.
The State was ordered to reoffer the equivalenl terms of the
plea offer originally extended on May 21, 2003, by Ravalli
1

In affirming this Court, the Circuit held there was no abuse
of discretion. Further, the Circuit determined the remedy
provided to Rose was in accord with Lafler, 556 U.S. at
171-75, and was also within this Court's "broad discretion in
conditioning a judgment granting habeas relief." Rose, 720 F.

i

County Attorney George Corn. Pursuant to 1' Lafler v.
Cooper, 132 S. Ct. 1376, 1389 (2012), this Court held the
state trial court would then be free to exercise its discretion
in deciding whether to vacate Rose's underlying conviction
and accept the plea agreement or leave Rose's conviction
undisturbed. (Doc. 94 at 6.) The State was given a June 30,
2016, deadline by which to reoffer the equivalent plea terms.
(Id.)
On June 29, 2016, Ravalli County Attorney Bill Fulbright
sent a letter to Rose's counsel reoffering equivalent plea
tenns. (Doc. 110-1 at 11-12.) On July 20, 2016, a written

rr

Hilton v. Braunskill, 481 U.S. 770,

Rose now seeks relief under Federal Rule of Civil Procedure
70(a) and asks this Court to enforce its prior judgment due
to the State of Montana's purported failure to comply with
the conditions of the conditional release order. (Doc. 109.)
Specifically, Rose contends the June 29, 2016 letter from
Fulbright contained additional terms that the 2003 proposal
from Corn did not, because the Fulbright letter makes a
recommendation for a 25-year sentence in return for Rose's
plea of guilty to assault. (Doc. 110 at 4.) Rose contends
the written agreement subsequently prepared by Fulbright
contains "at least 10 additional terms to the offer presented to
Rose," thus, differing substantially from Fulbright's June 29,
2016 letter. (Id.) Rose argues that since the written agreement
failed to offer the same tenns of the original 2003 proposal,
the State failed to meet the deadline set by this Court for
offering the equivalent plea terms. Because the State failed to
offer equivalent terms, so the argument goes, it did not act in
good faith and Rose should be immediately released from his
unconstitutional custody. (Id. at 5-6.)
*2 Rose is not entitled to relief. As an initial matter,
Fulbright could not extend the exact te1ms offered by Com in
2003. The significant issue with Corn's initial offer was that
it was illegal in form because it called for separate sentences
for Assault with a Weapon and for Rose's designation as a
persistent felony offender. 2 But, this Court did not order the
State to offer the exact plea terms, rather equivalent terms.
In Com's 2003 offer, he proposed the following:
I will dismiss the Aggravated Kidnapping charge and the
felony Assault on a Judicial Officer if your client pleads
"open" to Assault with a Weapon and misdemeanor Assault

WESlLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1b

Rose v. Kirkegard, Slip Copy (2018)

which would run consecutively to the Assault with a
Weapon.

Corn to recommend the same aggregate sentence as Fulbright
indicated he would recommend in 2016.

Additionally, I would agree to cap the Persistent Felony
Offender at 10 years with 5 suspended. This would run
consecutive to the Assault with a Weapon. I would file an
Amended Information with the above charges.

Moreover, neither proposal specifically outlined the
conditions that would be associated with the sentence. Corn's
proposal stated the pmties would be free to argue for
whatever conditions they deemed appropriate. Following the
acceptance of Fulbright's proposal, Rose was advised that
the offer would be formalized "in a standard plea agreement
format used in Ravalli County" for execution by all parties.
(Doc. 110-1 at 12.)

Each party is free to argue for what it deems is an
appropriate sentence as to length and [Department of
Corrections] versus [Montana State Prison].
Under the proposed plea, I have no objection to a "no
contest" plea.
(Doc. 110-1 at 9.) Corn went on to state that all other terms
and conditions of the sentence would be subject to argument
by both sides. (Id. at 10.)
The 2016 letter from Fulbright proposed the following:
I. The State will move to dismiss the charges of Aggravated
Kidnapping and Assault on a Judicial!Peace Officer;
2. Mr. Rose will plead guilty or no contest to the charges of
Assault with a Weapon and misdemeanor Assault;

3. The State will recommend a sentence of:
a. Assault with a Weapon: thirty (30) years, as
a persistent felony offender, with five (5) years
suspended; and
b. Assault (misdemeanor): six (6) months jail time,
consecutive to the sentence on the assault with a
weapon;

4. Mr. Rose will be free to recommend any lawful sentence.
(Doc. 110-1 at 11.)
Comparing the two proposals reveals the 2016 was more
specific in that it informed Rose what the state would
recommend at sentencing, while the 2003 proposal only
revealed that the State would agree to cap the persistent
felony offender portion of Rose's sentence at 10 years with 5
suspended. Further, the 2003 proposal advised Rose that the
persistent felony offender sentence would run consecutively
to the Assault with the Weapon sentence and the State would
then have been free to argue for the length of the remainder
of a sentence it deemed appropriate. Thus, it would have been
entirely possible, under the terms of the 2003 proposal, for

*3 Presumably, Rose, through counsel, could have argued
against any conditions he found objectionable in the written
plea agreement. It is unclear from Rose's filings with what
conditions he takes issue, because he does not specifically
state them. 3 But, Rose ultimately accepted the written plea
agreement prepared by the State. Thus, the Court cannot
see how Rose believes he is entitled now to some form of
relief based upon the tenns and conditions of an agreement
which he accepted. By entering into the agreement, any
argument he had relative to the purpmiedly objectionable
conditions is moot. Additionally, Rose could have raised this
issue on appeal, but failed to do so. The larger problem is
that the state trial corut rejected the agreement in total and
left Rose's original conviction and sentence in place. Thus,
none of the purported conditions with which Rose takes issue
were imposed upon him. His arguments at this juncture are
immaterial.
Under Fed. R. Civ. P. 70(a), a party is entitled to enforcement
when a judgment "requires a party to convey land, to deliver
a deed or other document, or to perform any other specific
act and the party fails to comply within the time specified."
Rose has not demonstrated that the State failed to perform a
specific act or to comply with this Comi's ordered timeframe.
The judgment of this Court, requiring the state to reoffer
equivalent terms of the 2003 plea proposal and then present
such agreement to the trial court for its consideration, was
timely and faithfully executed. Rose is entitled to no further
relief.
IT IS ORDERED that Rose's Motion to Enforce Judgment
(Doc. 109) is DENIED.

All Citations
Slip Copy, 2018 WL 10561909

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Worf,;s.

2

2b

Rose v, Kirkegard, Slip Copy (2018)

Footnotes
1
2

3

The Corn letter is contained in the record. (See Doc. 110-1 at 9-10.)
Under Montana law, sentences imposed based upon an offender's status as a persistent felony offender
replace the sentence for the underlying felony. See State v. Gunderson, 2010 MT 166 at ,r 54, 357 Mont.
142, 237 P. 3d 74 (holding persistent felony offender sentence replaces the underlying felony sentence of
a defendant convicted of felony intimidation).
The Court notes that although Rose states Fulbright added "at least" 10 objectionable conditions to the plea
agreement, the written agreement itself does not even contain a total of 10 sentencing conditions. (See Doc.
110-1 at 13-14.)

End of Docwnent

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

3b

APPENDIX C

United States District Court, District of Montana
Order for Certificate of Appealability Denied
Rose v. Kirkegard, Cause No. CV 13-156-M-DWM
Filed August 2, 2018

Rose v. Kirkegard, Slip Copy (2018)

2018 WL 10561910
Only the Westlaw citation is currently available.
United States District Court, D. Montana,
Missoula Division.

Robert L. ROSE, Petitioner,

v.
Leroy ICTRKEGARD; Attorney General
of the State of Montana; Respondents.

reason, Rose's Motion for Extension to Time (Doc. 115) is
denied as moot.
The Court is not aware of any authority requiring a certificate
of appealability to issue from an order denying a motion
under Rule 70. Cf, United States v. Winkles, 795 F. 3d 1134,
1142 (9th Cir. 2015) (holding a certificate ofappealability is
required to appeal the denial of a Rule 60(b) motion for relief
from judgment arising out of the denial of a section 2255
motion). To the extent a certificate ofappealability is required,
however, Rose's request is denied.

Cause No. CV 13-156-M-DWM-JCL

I
Signed 08/02/2018
Attorneys and Law Firms
David F. Ness, Federal Defenders of Montana, Great Falls,
MT, for Petitioner.
C. Mark Fowler, Tammy K. Plubell, Office of the Attorney
General, Helena, MT, for Respondents.

ORDER
Donald W. Molloy, District Judge

*1 On May_;24, 2018, this Court denied Rose's Motion
to Enforce the Judgment. (Doc. 111.) Specifically, it was
detem1ined that the prior judgment of this Court, requiring
the State of Montana to reoffer the equivalent terms of a 2003
plea proposal _and present the agreement to the state district
court for consideration, was timely and faithfully executed
and, accordingly, Rose was not entitled to any further relief:
Id. at 5-6.
On July 5, 2018, this Comt received Rose's Motion for
Certificate of Appealability. (Doc. 113.) Because Rose dated
this document June 22, 2018, the Cou1t will deem the

l'

document filed on that date.
Houston v. Lack, 487 U.S.
266, 276 (1988) (Pro se prisoner's document deemed filed on
the date prisoner delivers it to prison authorities for mailing
to clerk of cou1t). Rose subsequently filed a Motion for
Extension of Time to File Notice of Appeal. (Doc. 115.) The
Court will treat Rose's Motion for Certificate of Appealability
as a Notice of Appeal timely filed on June 22, 2018. For this
End of Document

As set forth in previous orders of this Court, Rose has received
all the process and relief that is due to him. A certificate
of appealabiliiy may be issued "only if the applicant has
made a substantial showing of the denial of a constitutional
right." 28 U.S.C. § 2253(c)(2). A petitioner satisfies this
standard by demonstrating reasonable jurists could disagree
with the district court's resolution of his constitutional claims
or could conclude the issues presented are adequate to

l?

deserve encouragement for further proceedings. Miller-El
v. Cockrell, 537 U.S. 322, 327 (2003). Rose has not made the
required substantial showing of the denial of a constitutional
right. Moreover, reasonable jurists would not find the result
here debatable. See,
484-85 (2000).

l · · Slack v.

McDaniel, 529 U.S. 473,

Based on the foregoing, the Court enters the following:

ORDER

I. The Clerk of Court is directed to refile Rose's Motion for
Certificate of Appealability (Doc, 113) as a Notice of Appeal
deemed to have been filed on June 22, 2018. Rose's Motion
for Extension of Time to File Notice of Appeal (Doc. 115) is
DENIED as moot.
2. Rose's Motion for a Certificate of Appealability (Doc. 113)
is DENIED.

All Citations

Slip Copy, 2018 WL 10561910

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

WESTt.AW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

1c

